OIG Audit Report GR-40-06-001

Office of Community Oriented Policing Services Methamphetamine Grants 
Awarded to the Mississippi Bureau of Narcotics, Jackson, Mississippi

Audit Report GR-40-06-001


December 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Mississippi Bureau of Narcotics (MBN).  The purpose of the grants is to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  The MBN was awarded four grants, totaling $2,611,925, to:  (1) train and equip MBN agents to investigate and dismantle clandestine methamphetamine laboratories; (2) facilitate the development of standards and protocols for the Drug Endangered Children (DEC) program; and (3) provide training for police, fire, educators, prosecutors, judges, and others in methamphetamine awareness, identification, and enforcement.  In its grant applications, the MBN indicated that the grants would increase arrests of methamphetamine distributors and the dismantling of methamphetamine laboratories.
We tested the MBNs accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.  We also tested whether the MBN had made progress in arresting methamphetamine distributors and dismantling methamphetamine laboratories.
We found the MBN to be in material non-compliance with the terms and conditions of the COPS Methamphetamine Grant Initiative guidelines.  The MBNs grant drawdowns could not be reconciled with accounting system reports or accounting records.  Therefore, we question the total amount of $1,968,775 in grant payments received by the MBN and recommend an additional $98,127 in funds be put to better use.1    We also identified additional deficiencies in the areas of budget management and control, grant expenditures, and reporting.
Specifically we found the MBN:

did not adequately and accurately account for the disbursement of grant funds;
was reimbursed $1,968,775 in unallowable and unsupported costs;
could not support financial status reports;
did not submit program progress reports; and
was awarded $98,127 more in grant funds than it needed to implement its methamphetamine program.


Our report includes 13 recommendations which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I of the report. 
We discussed the results of our audit with MBN officials and have included their comments in the report as applicable.



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and the definition of questioned costs.